In the
SUPREME COURT OF THE UNITED STATES

BRADLEY FREEMAN,
Petitioner,
vs.

STATE OF NEW MEXICO,
Respondent.

On Petition for a Writ of Certiorari to the New Mexico Supreme Court
ON PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF SERVICE

I, Charles D. Agoos, a member of the Bar of this Court, hereby certify that on

the 19th day of October, 2020, one copy of the Petition for a Writ of Certiorari in the
above-entitled case, along with the motion for leave to proceed in forma pauperis, were
mailed, first-class postage prepaid, to Lauren Wolongevicz, Esq., Assistant Attorney
General, Attorney General's Office, 201 Third Street N.W., Suite 300, Albuquerque,
NM, 87102, counsel for Respondent, State of New Mexico. I further certify that she is

the only party required to be served, and that she has been served.

Charles D. Agoos

Attorney of Record

Assistant Appellate Attorney

Law Offices of the Public Defender
1422 Paseo de Peralta, Bldg. 1
Santa Fe, New Mexico 87501

(505) 395-2890
Charles.Agoos@lopdnm.us
